No. 19-968
INTHE

hprtntt Qtnurt nf tiJt lnittb &tms
CHIKE UZUEGBUNAM AND JOSEPH BRADFORD,

v.

Petitioners,

STANLEY C . PRECZEWSKI, JANN L. JOSEPH,
LOIS C . RICHARDSON, JIM B. FATZINGER,
TOMAS JIMINEZ, AILEEN C. DOWELL, GENE RUFFIN,
CATHERINE JANNICK DOWNEY,
TERRANCE SCHNEIDER, COREY HUGHES,
REBECCA A. LAWLER, AND SHENNA PERRY,

Respondents.

ON WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.l(h), I, Daniel P. Kearney, Jr., a member
of the bar of this Court, certify that the accompanying Brief for Amicus Curiae Jewish
Coalition for Religious Liberty in Support of Petitioners contains 3,020 words,
excluding the parts of the document that are exempted by Supreme Court Rule 33.l(d).
Executed on September 29, 2020.

DANIEL P. KEARNEY,JR.
WILMER CUTLER PICKERING
HALE AND DORR LLP

1875 Pennsylvania Ave., NW
Washington, DC 20006
(202) 663-6000
daniel.kearney@wilmerha1e.com

